Report No. AU99-013 (610040)
Legal Services Corporation
O F F I C E   OF   I N S P E C T O R   G E N E R A L
Review of Case Statistics Report
Grantee: Legal Services of Greater Miami, Inc.
Recipient No. 610040
AU99-013
March 1999
APPENDIX 2:
Grantee
Response
OTHER REPORTS
OIG HOME
TABLE OF CONTENTS
Executive Summary
Background
Objectives, Scope and Methodology
Results of Audit
Case Service Reporting
Case Service Reporting Requirements
LSC Uses of Grant Activity Report
Use of Automated Case Management System to Prepare Annual Grant Activity Report
Examination of Reported Cases
Non-Reportable Contacts
Old Limited Service Type Cases
Errors in Reported Open Cases
Other Case Management Issues
Duplicate Records
Incorrect Closing Dates and Codes
Advocates Not Assigned to Cases
Case Files Not Found
Private Attorney Involvement Closed Case Statistics Were Inaccurate
Conclusions
Recommendations
Summary of Grantee Comments on Draft Report
OIG Comments
Appendix 1 - Listing of Findings and Associated Recommendations
Appendix 2 - Legal Services of Greater Miami, Inc. Comments on Draft Report
EXECUTIVE SUMMARY
The 1997 Grant Activity Report submitted by Legal Services of Greater Miami significantly overstated the number of cases closed during the year and open at year-end.  The program reported 20,487 closed cases but only 4,943 cases qualified to be reported as closed during 1997.  Therefore, the reported closed cases were overstated by over 315 percent. A total of 3,313 cases were reported as open, but the program had 2,664 open cases at year-end.
Closed cases were overstated primarily because 15,160 telephone calls and walk-in contacts were counted as cases.  Legal Services of Greater Miami did not accept the individuals as clients and provided no legal services.  Therefore, they should not have been reported as cases.  An additional 774 limited service cases that dated back several years were reported as closed in 1997 even though legal services were provided prior to 1996.  Limited service cases are categorized by LSC as brief services, advice and counsel, and referred after assessment, and are typically closed shortly after being opened.  Open cases were overstated by 649 because Legal Services of Greater Miami did not close all cases no longer being serviced.  In addition, the Grant Activity Report understated cases classified as Private Attorney Involvement cases by 28 percent.
The accuracy of the Grant Activity Report was also affected by duplicate  cases and incorrect closing codes and dates in the automated case management system. We did not estimate the number of cases involved. In addition, the automated case management system did not have the name of an assigned attorney or paralegal for a number of old cases and about eight percent of the files we asked to review could not be located.
Recommendations to correct the above problems are on page 9.
BACKGROUND
Legal Services of Greater Miami is a nonprofit Florida corporation organized in 1966 to provide legal services to indigent individuals who meet established eligibility guidelines.  Its priorities include housing, income maintenance, medical, family and consumer issues.  The grantee is headquartered in Miami and has branch offices in Dade and Monroe counties.  Its staff includes approximately 30 attorneys, 13 paralegals, and 31 other staff who provide computer, accounting, and administrative support services.  In 1997, the grantee received funding totaling about $4.4 million.  About 58.5 percent, or $2.6 million came from LSC.  The grantee attempts to meet its Private Attorney Involvement requirement primarily through the Dade Country "Put Something Back Project" and six other projects.
The grantee is required to prepare and submit an annual Grant Activity Report to LSC on key aspects of its workload.  The report includes statistics for basic field services and Private Attorney Involvement programs funded with LSC funds, including the number of open and closed cases, types of cases, and the reasons for closing cases.  For calendar year 1997, the grantee reported 3,313 open cases and 20,487 closed cases to LSC.
The grantee keeps track of client cases primarily through an automated case management system "Revelations," which operated only at its headquarters office in 1997.  The Private Attorney Involvement cases are also recorded in the case management system, which is the source of the information used in the Grant Activity Report.
OBJECTIVES, SCOPE, AND METHODOLOGY
The primary objective of this review was to determine whether the grantee provided LSC with accurate case statistical data in its 1997 Grant Activity Report.
The Office of Inspector General (OIG) performed this review from November 9-24, 1998, at the grantee's main office and its Monroe County branch office.  The OIG obtained and examined the grantee's 1997 and 1998 grant proposals to LSC, its 1997 grant activity report and 1997 Program Integrity certification.  During the on-site visit, the OIG interviewed and collected information from the grantee's executive director, managing attorneys, staff attorneys, paralegals, intake staff, information system specialist, and other support staff.
The OIG also obtained and reviewed the data in the grantee's automated case management system to determine if the case statistical data reported to LSC in the Grant Activity Report was consistent with information in client case files and in compliance with applicable LSC reporting requirements.  The OIG randomly selected 85 client cases for detailed review. Thirty additional client cases were randomly selected for review at a grantee branch office, as well as 30 additional cases that appeared to be duplicates.
The OIG obtained and examined data in the case management system to determine if the case statistical data reported for the 1997 Private Attorney Involvement Program was consistent with the data reported in the Grant Activity Report.
We performed this audit in accordance with Government Auditing Standards (1994 revision) established by the Comptroller General of the United States and under authority of the Inspector General Act of 1978, as amended and Public Law 105-119, incorporated by reference Public Law 104-134, §509(g).
RESULTS OF AUDIT
Case Service Reporting
The grantees' 1997 Grant Activity Report significantly overstated the number of cases closed during the year and the number remaining open at year end.  Most of the overstatement of closed cases resulted from the grantee's practice of counting and reporting brief telephone calls and walk-in contacts as cases.  The individuals  requesting assistance were not accepted as clients and not provided legal service.  An additional overstatement occurred because cases were reported as closed in 1997 when legal service had been provided and the case closed in prior years.  Open cases were overstated because cases that were no longer being serviced had not been closed in the automated case management system.  Additional problems included: 1) duplicate records; 2) incorrect closing codes and dates; and 3) old cases without a responsible attorney or paralegal named in the automated system; and 4) missing client files.
Case Service Reporting Requirements
LSC requires recipients to submit an annual Grant Activity Report summarizing the previous year's legal services activity wholly or partially supported with LSC funds.  The information in the report includes total number of cases worked on, types of legal issues, number of open and closed cases and the reasons cases were closed.  The report also includes information on Private Attorney Involvement cases.  The Case Service Reporting Handbook and Grant Activity Report instructions provide reporting criteria for cases.  Reported cases must be for eligible clients and within the recipient's priorities.  Eligibility is based on income and asset determinations and must be documented.
LSC Uses of Grant Activity Report
LSC uses grantee case statistical information to support the Corporation's annual budget request and as a performance measure in the performance plan submitted in response to the Government Performance and Results Act.  The compilation of program-wide data on open and closed cases is an integral part of the management oversight process and also allows LSC management to keep its Board of Directors and the Congress informed of significant program activities and performance.
Use of Automated Case Management System to Prepare Annual Grant Activity Report
Revelations is a data processing system that allows the grantee to store, retrieve, and analyze information about client cases and the organization's delivery of legal services.  It has been in use by the grantee since 1987 to produce annual case statistical reports to LSC.  The grantee used the case records as the basis for its Grant Activity Report.
In response to the annual reporting requirement, the grantee submitted the following information to LSC:
Type of Legal ProblemOpenClosed
Consumer/Finance2541,977
Education65194
Employment75825
Family3902,618
Juvenile3294
Health158469
Housing8355,784
Income Maintenance1,2705,409
Individual Rights241,444
Miscellaneous2101,673
TOTALS3,31320,487
Examination of Reported Cases
The grantee should have reported 4,943 closed cases and 2,664 open cases in its 1997 Grant Activity Report.  The overstatement occurred primarily because the grantee classified many non-reportable contacts as cases and also did not close and report some cases in the year legal service was provided.  In addition, the program reported 774 limited service cases (counsel and advice, brief services, and referred after legal assessment) as closed in 1997 when they should have been closed and reported to LSC in previous years.
The number of closed cases would be further reduced if duplicate records were removed.  The grantee's automated case management system included some duplicate records for both open and closed cases.  This duplication could be significant.  However, we could not estimate the number of duplicate records because of the way the client records were maintained in the automated system.  The duplicate record problem is discussed in more detail on page 8.
Non-Reportable Contacts
The grantee incorrectly reported 15,160 contacts with individuals as closed cases.  The contacts were with individuals who sought legal assistance through telephone calls or visits, but were not accepted as clients by the grantee.  Intake workers with no formal legal training, reviewed the individuals' applications for assistance.  Individuals whose legal problem did not coincide with program priorities or who were ineligible for LSC funded assistance, were not accepted as clients.  They received no legal advice but were frequently given the telephone numbers of other legal service providers and on some occasions, self-help materials.
The intake workers concurrently opened and closed cases for the above described contacts in the automated case management system.  Under the grantee's procedures, the intake workers closed the cases as either " referred after legal assessment" or "counsel and advice."  These contacts should not have been reported as cases because no legal assistance was provided as required by LSC guidance in the CSR Handbook.
Old Limited Service Type Cases
The grantee incorrectly reported 774 limited service type cases (i.e., counsel and advice, brief services and referred after legal assessment) as closed in 1997.  These cases should have been closed and reported in previous years.  A limited service type case usually requires little professional staff time and all work is usually completed shortly after the case is opened.  Therefore, these type cases should be closed relatively close to the date they are opened.
The grantee reported 20,487 closed cases for 1997.  As discussed above, 15,160 cases were erroneously reported, leaving 5,327 apparently correct closures.   The Grant Activity Report showed that 774 of the 5,327 cases were limited service type cases opened prior to 1996.  These cases should have been closed and reported to LSC prior to 1997.  In addition, an indeterminate number of limited service cases opened in 1996 likely should have been closed in 1996, and should not have been reported in 1997.  One limited service case reported closed in 1997, was opened in 1982.  The following chart shows the limited service cases opened prior to 1996.
YearOpenedLimitedServiceCases
1995126
1994107
1993232
1992127
199161
1990 & Before121
Total774
Errors in Reported Open Cases
The grantee's reported open case total of 3,313 was overstated by 649 cases.  The overstatement occurred because limited service cases that should have been closed during 1997 or in prior years were reported as open as of the end of the year.  One brief service case that was opened in 1984 was reported as open in the 1997 Grant Activity Report.  Early in calendar year 1998, the grantee closed all of the old 649 limited service cases.  This would result in an overstatement of 1998 closed cases, because these cases should have been closed in prior years, unless the grantee adjusts its 1998 report accordingly.
OTHER CASE MANAGEMENT ISSUES
Several additional case management system problems surfaced during our review.  Specifically, 1) duplicate cases were in the system, 2) some records contained incorrect closing codes and dates, 3) some cases were not assigned to an attorney or paralegal, 4) some case files could not be located, and 5) statistics on closed Private Attorney involvement cases were  inaccurate.
Duplicate Records
The grantee's case management system contains duplicate records, i.e., the same case is in the system more than once.  We reviewed the records for eight clients with multiple cases recorded in the system and found a 100 percent error rate.  Each client had a single legal problem and should have had only one case recorded.  The problem occurred because clients made multiple requests for assistance that were recorded as separate cases even though the same legal problem was involved.  The duplicate record problem is potentially significant if numerous such records are in the system.  We could not make a reliable estimate of the total duplicate records in the system because of the difficulty in establishing the universe of possible duplicates.  The grantee should periodically produce a report in client name and legal problem sequence to identify possible duplicate records that should be deleted from the system.
Incorrect Closing Dates and Codes
Case closed dates and reason for closure codes in the case management system were erroneous at a relatively high rate.  The closing dates for 17 percent of sample cases did not match the closing dates on the source documents (intake sheets).  Reason for closure codes were different for 18 percent of the sample cases.  Improved internal controls are needed over the data input process to detect and correct such errors.  Supervisors should verify a sample of cases periodically to ensure that the data in the system is consistent with the applicable documentation.
Advocates Not Assigned to Cases
The case management system did not include the names of responsible attorneys or paralegals assigned to some old open cases.  About 20 percent of the 394 cases opened prior to 1991 did not have an advocate assigned in the case management system.  Grantee management needs to review all open cases without an assigned advocate and close the case if no legal services are being provided or have the system updated to include the name of the current advocate for cases that are active.
Case Files Not Found
The grantee's staff could not locate five files from a sample of 65 cases that were reported as closed during 1997 or were open at year end.  Three of the missing files were for closed cases and two were for open cases, an eight percent error rate.  Because of a limitation in our sample we could not project the error rate to the universe of open and closed cases.  Nevertheless, there are indications of a potential problem that needs attention.  Grantee management should review a sample of open and closed files and determine if a significant number of files cannot be located and adopt improved controls over files if warranted.
Private Attorney Involvement Closed Case Statistics Were Inaccurate
The grantee provided a detailed listing to support the number of open, closed and Private Attorney Involvement cases reported in the Grant Activity Report.  The listing, with minor exceptions, supported the reported open and closed cases. However, the reported Private Attorney Involvement  closed cases were inaccurate.  The grantee's Grant Activity Report included 645 closed Private Attorney Involvement cases.  The detailed listing had 897 such cases.  We were not able to determine the exact cause of the reporting problem.  In comments on our draft report, grantee management stated that the problem occurred because some Private Attorney Involvement cases were closed with a 1997 closure date after the Grant Activity Report was sent to LSC.  Grantee management needs to review and verify case data before it is submitted to LSC.
CONCLUSIONS
The grantee needs to improve the accuracy of the case statistics reported in the Grant Activity Report.  Its 1997 report significantly overstated both closed and open cases.  The problem occurred because the grantee reported, as cases, contacts with individuals who were not accepted as clients nor provided legal services.  Other errors in the data in the automated case management system indicate that the system is unreliable.  Grantee management needs to ensure that the Grant Activity Report only includes cases that meet LSC's definition of a case and needs to improve controls over preparation of data to guard against inaccurate data entering the case management system.
RECOMMENDATIONS
The OIG recommends that grantee management:
Implement revised procedures to preclude reporting intake staff contacts as cases in the Grant Activity Report.
Implement procedures requiring that limited service type closed cases be reported in the year service was provided.
Review cases opened prior to 1999 to determine if legal services are being provided, and close those that are no longer being serviced.
Implement procedures for 1) periodically producing a report in client name and legal problem sequence, 2) reviewing the report and associated case files to determine if duplicate records are in the system, and 3) deleting duplicate records.
Implement procedures requiring supervisors to review closed cases periodically to ensure that data in the case management system is consistent with data in case files.
Implement procedures requiring the periodic review of cases recorded as open in the case management system to ensure all case have an assigned advocate.
Select a sample of open and closed cases in the case management system and verify that case files are readily available.  If a significant number of files cannot be located, adopt improved controls over the files such as requiring anyone taking a file to sign a control log.
Review and verify the accuracy of Private Attorney Involvement data before it is submitted to LSC.
SUMMARY OF GRANTEE COMMENTS ON DRAFT REPORT
The grantee's comments focused on the reporting of services, stating that the draft report contained factual errors and suggested that the grantee reported more services than were provided. The comments stated that the draft report mischaracterized and undervalued the intake screening, advice and referral services and that the services are valuable to clients.  The grantee stated that it has an elaborate and comprehensive intake system and that the paralegals conduct in depth interviews with all clients who come to the office.  The grantee stated that it properly reported the intake screening and advice and referral services in accordance with the general practice at the time, and any reporting problems were the result of poor LSC guidance.  The comments disagreed with the draft report's statement that 1,183 limited service type cases were incorrectly closed in 1997.
The grantee's comments indicated that recommendations 1- 4 and 6 had been implemented and that recommendations 5 and 8 will be implemented. The comments stated that recommendation 7 (covering missing files) was no longer an issue because the inability to locate files was a one time situation that has been rectified.  The comments also indicated that not being able to locate eight percent of case files was not an unusual error rate.
Appendix 2 contains the grantee's comments.
OIG COMMENTS
The grantee's lengthy comments did not address in any substantive way the case reporting problems discussed in the report.  The comments focused on the reporting of services rather than the case reporting problems addressed in the report (services and cases are not synonymous).  For this reason, the comments were difficult to understand and relate to the report.  They appear to challenge the report but do not present factual data to refute any of the report's findings.
The OIG agrees that the intake screeners provide useful and needed services.  However, the services provided do not qualify as cases under LSC's reporting guidance and should not be reported.  There is no provision in the LSC guidance for reporting brief contacts with potential clients.
The OIG's policy is to specifically address grantee comments that raise substantive issues about draft reports.  In this case, no substantive issues were presented.  Therefore, the comments are not specifically addressed.  Three comments resulted in minor changes to the report.  The report was amended to delete the reference to a lack of eligibility screening by the grantee's intake staff.  The reference to reporting the brief contacts as "matters" was deleted from the report and the first recommendation.  The number of incorrectly reported limited service type cases was reduced from 1,183 to 774.
After the audit exit conference briefing by our staff on the improper reporting, grantee management took action to correct the case statistical reporting problems.  The grantee's 1998 Grant Activity Report reported that 5,091 cases were closed during the year, a reduction of 15,396 from the 20,487 closed cases reported in 1997.  The reduction was primarily in the referred after assessment and counsel and advice categories.  In 1997, the grantee reported 16,835 closed cases in these categories.  This number was reduced to 2,009 in 1998.  This reduction validates our report.
Please provide the OIG a corrective action plan for the report recommendations.  For recommendations 1-4 and 6 the corrective action plan should include documentation indicating when the recommendations were implemented and the specific corrective actions taken.  For the remaining recommendations, please provide an implementation schedule and specific actions that will be taken to implement the recommendations.  We do not agree with the grantee's assertion that the missing case files were a one-time problem and that an eight percent error rate is acceptable.  Therefore we reaffirm our recommendation number 7.
The corrective action plan is due within 30 days of the date of this report.
APPENDIX 1
LISTING OF FINDINGS AND ASSOCIATED RECOMMENDATIONS
Findings:
Closed cases overstated
Recommendations #1 and 2
Errors in open cases
Recommendation #3
Other case management issues
Recommendations #4 - 8
Appendix 2: Grantee Comments